1

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(May 22, 2019)
App. 1
Appendix B Opinion and Order in the United
States District Court for the Northern
District of Georgia Atlanta Division
(December 5, 2016)
App. 7
Appendix C Opinion in the United States Court of
Appeals for the Eleventh Circuit,
No. 12-15424
(October 14, 2014)
App. 19
Appendix D Order Denying Rehearing and
Rehearing En Banc in the United
States Court of Appeals for the
Eleventh Circuit
(September 5, 2019)
App. 35
Appendix E Plaintiff Motion filed in Fulton County
Court re: HIPAA Violation Litigation
(November 23, 2016)
App. 37
Appendix F Misapplication of Law by Eleventh
Circuit Court of Appeals May 22, 2019
App. 45
Ruling
Appendix G N.C. Disability Statutes . . .

App. 47

Appendix H Camp Lejuene Toxic Water
Map........................................

App. 53

App. 1

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-17573
Non-Argument Calendar
D.C. Docket No. l:ll-md-02218-TWT
[Filed May 22, 2019]
In Re: CAMP LEJEUNE, NORTH CAROLINA
WATER CONTAMINATION LITIGATION.
LEANDRO PEREZ, et al.,
Plaintiffs,
ANDREW STRAW,
JAMES NATHANIEL DOUSE,
ERICA Y. BRYANT,
ROBERT BURNS,
DANIEL J. GROSS, II,
ROBERT PARK,
SHARON KAY BOLING,
LINDA JONES,
ESTELLE RIVERA,
Plaintiffs-Appellants,
versus

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 2
UNITED STATES OF AMERICA,
DEPARTMENT OF THE NAVY,
United States of America,
ADMINISTRATOR OF THE
ENVIRONMENTAL PROTECTION AGENCY,
DIVISION DIRECTOR, DEPARTMENT OF
ENVIRONMENTAL PROTECTION AGENCY,
DEPARTMENT OF DEFENSE, SECRETARY
OF THE NAVY,
Defendants-Appellees.

)
)
)
)

)
)
)
)
)
)
)

Appeal from the United States District Court
for the Northern District of Georgia
(May 22, 2019)
Before TJOFLAT, MARTIN and NEWSOM, Circuit
Judges.
PER CURIAM:
Andrew Straw, James Douse, Erica Bryant, Robert
Burns, Daniel Gross, Robert Park, Sharon Boling,
Linda Jones, and Estelle Rivera (collectively,
“Plaintiffs”) appeal the District Court’s dismissal of
their actions alleging that the Government negligently
injured them by providing contaminated water while
they inhabited Marine Corps Base Camp Lejeune in
the 1970s and 1980s.
On appeal, Plaintiffs argue that the District Court
committed four errors. First, they argue that the
District Court erred in determining that their claims
are barred by the discretionary-function exception to
the Federal Tort Claims Act (“the FTCA”), 28 U.S.C.

App. 3
§ 2680(a). Second, they argue that the District Court
erred in determining that North Carolina’s ten-year
statute of repose bars their claims. Third, they argue
that the District Court erred in determining that the
Feres1 doctrine bars their claims, as their injuries were
not incidental to their military service. Fourth and
finally, Plaintiff Straw argues that the District Court
abused its discretion by denying his motion for default
judgment because the Government failed to respond to
his pleading.
Because we hold that North Carolina’s ten-year
statute of repose applies to and bars Plaintiffs’ claims,
we affirm the District Court’s judgment without
reaching the FTCA, Feres doctrine, and default
judgment issues.
I.
We review de novo the District Court’s granting of
a motion to dismiss. See Zelaya v. United States, 781
F.3d 1315, 1321 (11th Cir. 2015).
In this case’s prior interlocutory appeal, we held
that “North Carolina’s statute of repose, N.C. Gen.
Stat. § 1-52(16) (2010), applies to the plaintiffs’ claims,
and it does not contain an exception for latent
diseases.” Bryant v. United States, 768 F.3d 1378, 1385
(11th Cir. 2014). Plaintiffs now argue that this Court
clearly erred in deciding Bryant. Even if Plaintiffs are
correct—which they are not2—it is axiomatic that “a
1 Feres v. United States, 340 U.S. 135, 71 S. Ct. 153 (1950).
2 In Stable v. CTS Corp., 817 F.3d 96 (4th Cir. 2016), the Fourth
Circuit addressed the same question we confronted in Bryant.

App. 4
prior panel’s holding is binding on all subsequent
panels unless and until it is overruled or undermined
to the point of abrogation by the Supreme Court or by
this court sitting en banc” In re Lambrix, 776 F.3d 789,
794 (11th Cir. 2015) (per curiam) (quoting United
States v. Archer, 531 F.3d 1347, 1352 (11th Cir. 2008)).
Neither the Supreme Court nor this Court sitting en
banc has overruled Bryant, so its holding remains good
law.
In addition to arguing squarely against precedent,
Plaintiffs now contend that a six-year statute of
repose—that is, not the ten-year “statute of repose that
has been at issue for the entirety of this litigation,”3 but
another one—applies to their claims. The new statute
of repose provides that “[n]o action to recover damages
based upon or arising out of the defective or unsafe
condition of an improvement to real property shall be
brought more than six years from the later of the
specific last act or omission of the defendant giving rise
to the cause of action.” N.C. Gen. Stat. § l-50(a)(5)(a).
Plaintiffs would rather be subject to the six-year
statute of repose because it contains an exception for
Though the Fourth Circuit reached a different conclusion, one
member of the panel went out of her way to note that “[t]he
Supreme Court of North Carolina itself has sent mixed signals
about the scope of § 1-52(16).” Id. at 114 (Thacker, J., concurring).
What’s more, the four federal circuit courts that have interpreted
§ 1-52(16) have expressed “different views of the statute’s scope.”
Id. (collecting cases). Given the difficulty of this question and the
diversity of interpretations it has produced, Plaintiffs’ suggestion
that we plainly erred in Bryant is plainly misguided.
3 In re Camp Lejeune N.C. Water Contamination Litig., 263
F. Supp. 3d 1318, 1336 (N.D. Ga. 2016).

App. 5
defendants who are “in actual possession or control...
of the improvement at the time the defective or unsafe
condition constitutes the proximate cause of the
[plaintiffs injury].” Id. § l-50(a)(5)(d).
Plaintiff Rivera4 contends that this six-year statute
of repose applies because she “alleged that [her]
injuries arose out of the defective and unsafe conditions
of improvement to real property” at Camp Lejeune.
Rivera Br. at 9—10. The problem with this argument is
that Rivera’s allegations are conclusory, and “the tenet
that a court must accept as true all of the allegations
contained in a complaint is inapplicable to legal
conclusions.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129
S. Ct. 1937, 1949 (2009).
Section l-50(a)(5), the six-year statute of repose,
“deals expressly with claims arising out of defects in
improvement to realty caused by the performance of
specialized services of designers and builders.” Trs. of
Rowan Tech. Coll. u. J. Hyatt Hammond Assocs., Inc.,
328 S.E.2d 274, 279-80 (N.C. 1985). “In order for this
statute to apply, . . . the party sued must have been
involved in the designing, planning, or construction of
the defective or unsafe improvement.” Feibus & Co. v.
Godley Constr. Co., 271 S.E.2d 385, 39l (N.C. 1980). It
is, “in essence, an architect’s and builder’s malpractice
statute.” Trs. of Rowan Tech. Coll., 328 S.E.2d at 280.
So to be subject to this statute of repose rather than
4 Three Plaintiffs—Bryant, Wright, and Rivera—argue that the
causes of action pleaded in their complaints subject their claims to
the six-year statute of repose. None of them is correct, but Plaintiff
Rivera advances the strongest argument, so we use it as an
example.

App. 6
the ten-year statute of repose, Plaintiffs were required
to allege defects in the design or construction of the
wells at Camp Lejeune. Bryant and Wright do not do
so. And—though she advances the strongest
argument—neither does Rivera. The closest Rivera
comes to alleging a construction defect is when she
claims that over-pumping of the base’s water wells, in
addition to deficient maintenance and inspection,
caused the wells to become “defective and unsafe.”
Rivera Br. at 17. But this is conduct that allegedly
occurred after the construction of the wells, and thus
cannot support a claim that the wells were defectively
designed or constructed.
II.
As we held five years ago, Plaintiffs’ claims are
subject to the ten-year statute of repose under N.C.
Gen. Stat. § 1-52(16). The wells at issue in this case
were taken out of use in 1987, and the earliest claim by
a Plaintiff was made in 1999—two years after the
statute of repose had cut off Defendants’ liability.
AFFIRMED.

App. 7

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MULTIDISTRICT LITIGATION
NO. 1:11-MD-2218-TWT
[Filed December 5, 2016]
IN RE CAMP LEJEUNE NORTH )
CAROLINA WATER
)
CONTAMINATION LITIGATION )
OPINION AND ORDER
[pp.1-2]
This matter is before the Court on the Government’s
motion for order relating to the preservation of
documents and electronically stored information [37];
the Government’s motion to dismiss [61]; the
Government’s motion to dismiss for lack of subjectmatter jurisdiction [62]; the Plaintiffs’ motion for oral
argument [72]; Plaintiff Bryant’s motion to amend
complaint [77]; the Plaintiffs’ motion for extension of
time to complete discovery and to stay [83]; Plaintiff
Johnston’s pro se motion to amend [97]; Plaintiff
Douse’s pro se motion for reconsideration [117];
Plaintiff Straw’s pro se motion for clerk’s entry of
default [121]; Plaintiff Douse’s pro se motion to amend
[123]; Plaintiff Wright’s motion to amend complaint

App. 8
[126]; the Government’s motion to dismiss all cases
based on North Carolina statute of repose [127];
Plaintiff Douse’s pro se motion for punitive and
exemplary damages [143]; the Government’s motion to
strike [152]; Plaintiff Douse’s pro se motion for
additional award of damages, for relief based on
Bivens, and for a protective order [156]; Plaintiff
Bryant’s supplemental motion to amend [164]; Plaintiff
Straw’s pro se motion for permanent injunction [165];
Plaintiff Straw’s pro se fourth motion for clerk’s entry
of default [169]; the Government’s motion for protective
order [172]; the Plaintiffs’ motion to transfer pursuant
to 28 U.S.C. § 1631 or motion for conditional suggestion
of remand [176]; Plaintiff Straw’s pro se first motionfor
clerk’s entry of default [178]; the Plaintiffs’ motion for
a hearing [188]; and Plaintiff Straw’s pro se motion for
refund and further relief [192].
k k k

[pp.86-96]
Plaintiffs’ claims cannot go forward, the court DENIES
AS MOOT Plaintiff Johnston’s motion to amend [97].
Mr. James Douse filed a complaint in the Northern
District of Georgia. On August 8, 2012, the court
transferred that complaint to the Multidistrict
Litigation.231 On August 19, 2015, the court denied Mr.
Douse’s “motion for an indicative ruling” as the issues
referenced by Mr. Douse in that motion at that time
were pending on appeal before the Eleventh Circuit.232
Mr. Douse filed a motion for reconsideration of that
231

See Doc. No. [86].

232

See Doc. No. [116].

App. 9
order. In his motion for reconsideration, Mr. Douse
references the injuries suffered by him and his family
allegedly due to water contamination at Camp Lejeune.
Mr. Douse’s motion for reconsideration addresses
several of the same arguments made by other Plaintiffs
as to the statute of repose and the issue of negligence
under the Federal Tort Claims Act. For the same
reasons as the court has given above, the court
DENIES Mr. Douse’s motion for reconsideration [117].
Mr. Douse also filed a motion to amend his
complaint. In that motion, Mr. Douse states he wishes
to amend his complaint to add the statement of
Secretary of the Department of Veterans Affairs Bob
McDonald concerning the ATSDR report on
contamination of drinking water at Camp Lejeune, as
well as several points of procedural history in the
litigation. Mr. Douse also alleges that the Government
committed “fraud” by hiding the contamination of the
drinking water at Camp Lejeune. He also adds
arguments similar to those he raised in his motion for
reconsideration. For the same reasons as given above,
the court DENIES AS MOOT Mr. Douse’s motion to
amend complaint [123].
Mr. Douse files a motion for punitive and exemplary
damages due to the fact that the Government attached
Mr. Douse’s administrative complaint to the
Government’s opposition to Mr. Douse’s motion to
amend. Mr. Douse claims the attachment of the
administrative file is a violation of the Health
Insurance Portability and Accountability Act
(“HIPAA”) and thus he is entitled to punitive and
exemplary damages. The Government responds that

App. 10
the attachment of the entire file was inadvertent. The
Government also notes that it requested that the
Clerk’s Office place Mr. Douse’s administrative
complaint under seal and this has been done. The court
finds that any exposure of information was inadvertent
and for only a brief period of time. Therefore, the court
DENIES Plaintiff Douse’s motion for punitive and
exemplary damages [143]; and DENIES Plaintiff
Douse’s motion for additional award of damages, for
relief based on Bivens, and for a protective order [156].
Mr. Andrew Straw has filed several motions for
default judgment contending that the Government has
not answered his complaint. However, as the court
explained above, when this Multidistrict Litigation
case was opened, the court made several procedural
rulings to streamline the litigation. Significant to Mr.
Straw’s motions, the court directed the Government’s
obligation to answer the Plaintiffs’ complaints was
stayed until the court resolved the threshold legal
issues discussed in this order. The court also limited
discovery to only two issues — the Feres doctrine and
the discretionary function exception. No other
discovery was permitted until the court resolved the
threshold issues it addressed above. Under the terms
of the Case Management Order, the Government is not
required to answer any Requests for Admission
propounded by any Plaintiff. For this reason, the court
DENIES Plaintiff Straw’s motion for clerk’s entry of
default [121]; DENIES Plaintiff Straw’s fourth motion
for clerk’s entry of default [169]; GRANTS the
Government’s motion for a protective order [172]; and
DENIES Plaintiff Straw’s first motion for clerk’s entry
of default [178].

App. 11
Mr. Straw also filed a motion for permanent
injunction, but this motion appears to address current
conditions at Camp Lejeune and Mr. Straw is not a
current resident. Thus, he does not have standing to
seek any relief with respect to current conditions at
Camp Lejeune. The court DENIES Plaintiff Straw’s
motion for permanent injunction [165]. Finally, Mr.
Straw asks that the court refund his $400 filing fee in
this case because he has not received any justice.233 But
Mr. Straw did not originally file this suit in the
Northern District of Georgia; he filed it in the District
Court for the Northern District of Illinois. Moreover, he
also states that courts have denied him in forma
pauperis status and have determined that the cases he
has filed are frivolous. Dissatisfaction with the rulings
of the court is not a sufficient basis for seeking refund
of a filing fee. The court DENIES Plaintiff Straw’s
motion for refund and further relief [192],
F. Summary
The court has determined that it must follow the
binding precedent of Bryant and concludes that the
Plaintiffs’ claims are barred by the ten-year statute of
repose under North Carolina law. Even if the claims
were not barred by the statute of repose, the court also
finds that any claims by service members that accrued
during their time as service members are barred by the
Feres doctrine. Finally, the court also finds that there
were no mandatory specific directives in the form of
federal statute or regulations which removed discretion
from government actors regarding the water supply at
Camp Lejeune, and decisions relating to the disposal of
233

See Doc. No. [192].

App. 12
contaminants, the provision of water on the base, and
whether any base inhabitant should be warned are
policy based decisions and the discretionary function
exception applies, barring the Plaintiffs’ claims.
Plaintiff Rivera contends that none of these rulings
applies to his case because it was not transferred to the
MDL until February 4, 2016, after the Government
filed its latest motion to dismiss.234 The court notes that
in its first Case Management Order, it stated that the
order would “govern the practice and procedure in any
tagalong actions transferred to this court by the
Judicial Panel on Multidistrict Litigation, „235 But the
court did not make any specific order as to whether
substantive rulings on common issues would also
control the tagalong cases.
Under the present circumstances, however, the
court finds that the rulings it made here do apply to
Plaintiff Rivera. As an initial matter, Plaintiff Rivera
is represented by the same counsel that represents
Plaintiff Wright; and Plaintiff Rivera adopted the
arguments of Plaintiff Wright in response to the
Government’s most recent motions. Accordingly,
Plaintiff Rivera did have an opportunity to respond.
Furthermore, much of what the court has ordered here
is a reflection of binding authority rendered by the
United States Supreme Court and the Eleventh
Circuit. Nothing Plaintiff Rivera argues now can
change that binding precedent. The court rejected
above an argument that allegations of fraud and
234

See Doc. No. [159],

235

See Doc. No. [16], at 1.

App. 13
concealment would toll the statute of repose. As to the
discretionary function and Feres rulings, the court
ordered a specific discovery period and directed that
the period of discovery would not be re-opened for later
filed tagalong cases.236 Thus, there cannot be new
information from Plaintiff Rivera that would alter the
court’s conclusions as to the Feres doctrine and the
discretionary function exception.
Although the court grants the Government’s
motions to dismiss, the court must also address the
manner in which the cases should be dismissed. A
dismissal with prejudice applies to all claims disposed
of under North Carolina’s statute of repose, as well as
the Feres doctrine. The dismissal under the
discretionary function exception requires more detailed
discussion. When the discretionary function exception
applies, the courtis without subject matter jurisdiction.
The Eleventh Circuit has held that a “dismissal for lack
of subject matter jurisdiction is not a judgment on the
merits and is entered without prejudice.”237 The Ninth
Circuit, however, has recognized that the discretionary
function exception has its roots in the sovereign
236
237

See Doc. No. [24],

2.

See, e.g., Stalley ex rel. United States v. Orlando Reg’l
Healthcare Sys., Inc., 524 F.3d 1229 (11th Cir. 2008); Stanley v.
Central Intelligence Agency, 639 F.2d 1146, 1157 (5th Cir. 1981)
(internal citations omitted) (“[w]hen a court must dismiss a case
for lack of jurisdiction, the court should not adjudicate the merits
of the claim”); see also Ashford v. United States, 463 F. App’x 387,
395-96 (5th Cir. 2012) (holding that dismissal under discretionary
function exception of FTCA on jurisdictional grounds and therefore
is without prejudice and not judgment on merits); Hart v. United
States, 630 F.3d 1085, 1091 (8th Cir. 2011) (same).

App. 14
immunity of the United States Government. Therefore,
in Frigard v. United States, 238 the court held that
“[o]rdinarily, a case dismissed for lack of subject matter
jurisdiction should be dismissed without prejudice so
that a plaintiff may reassert his claims in a competent
court, . . . however, the bar of sovereign immunity is
absolute: no other court has the power to hear the case,
nor can the [plaintiffs] redraft their claims to avoid the
exceptions to the FTCA. Thus, the district court did not
abuse its discretion in dismissing the action with
prejudice. »239 The Eleventh Circuit touched on this
issue in Zelaya, where it noted that the court has
always considered issues of § 2680 to be jurisdictional,
but noted as well that “we also recognize that in its
recent jurisprudence, the Supreme Court has become
more reluctant, when sanctioning the dismissal of some
claims, to base its rejection on jurisdictional grounds,
as opposed to a deficiency in the merits of the claim. >>240
But the viability of this theory might be in some doubt
as a result of Simmons v. Himmelreich. 241

238

862 F.2d 201 (9th Cir. 1988).

239

Id. at 204 (citation omitted).

240

781 F.3d at 1339; see also Parrott v. United States, 536 F.3d
629, 634 (7th Cir. 2008) (holding exceptions to United States’
waiver of sovereign immunity, found in § 2680(a)-(n), “limit the
breadth of the Government’s waiver of sovereign immunity, but
they do not accomplish this task by withdrawing subject-matter
jurisdiction from the federal courts”).
241

U.S.___, 136 S. Ct. 1843 (2016) (holding FTCA’s judgment
bar does not apply to cases decided under discretionary function
exception).

k

App. 15
There are additional concerns in this case that are
unique. As the court explained above, this Multidistrict
Litigation was established to handle all complaints
filed concerning contamination of the water supply at
Camp Lejeune. The court determined that certain
threshold legal issues had to be addressed before
proceeding to any extensive discovery or further
development of the merits of the cases. Various courts
have taken over five years to address those threshold
issues and have reached the conclusion that CERCLA’s
statute of limitations period does not preempt North
Carolina’s statute of repose and that the statute of
repose does not contain an exception for latent disease
claims. Now, this court has also held that to the extent
any claims remain after those rulings, the
Government’s actions with respect to the water supply
at Camp Lejeune are covered by the discretionary
function exception to the Federal Tort Claims Act. As
explained above, the resulting lack of subject matter
jurisdiction is a consequence of sovereign immunity
and is not a situation where another court would
potentially have subject-matter jurisdiction over the
Plaintiffs’ claims. Furthermore, the court has already
considered all of the allegations raised by the Plaintiffs
in their latest proposed amendments. Thus, there is no
further amendment to the Plaintiffs’ complaints that
would potentially allow this court - or any other — to
exercise subject matter jurisdiction over the Plaintiffs’
claims. Thus, although the court dismisses without
prejudice under the discretionary function exception
due to Eleventh Circuit precedent, for all practical
purposes, there is no other forum where the Plaintiffs
could bring these claims without meeting the same

App. 16
sovereign immunity obstacle under the discretionary
function exception.
The court must now determine what remains to be
done in this Multidistrict Litigation. The Government
argues that once the court has determined it does not
have subject matter jurisdiction over the Plaintiffs’
claims, the court should dismiss the pending cases. The
Plaintiffs respond that the appropriate action is
remand of the cases back to the transferor courts. 242
Under § 1407, “[ejach action so transferred shall be
remanded by the panel at or before the conclusion of
such proceedings to the district from which it was
transferred unless it shall have been previously
terminated. >>243 The court has terminated the causes of
action and therefore, there is no need to recommend to
the Judicial Panel that the cases be sent back to the
originating districts. The rules of the Judicial Panel
state that:
Where the transferee district court terminates
an action by valid order, including but not
limited to summary judgment, judgment of
dismissal and judgment upon stipulation, the
transferee district court clerk shall transmit a
copy of that order to the Clerk of the Panel. The
terminated action shall not be remanded to the
transferor court and the transferee court shall
retain the original files and records unless the
242

This transfer is distinguished from the Plaintiffs’ prior
argument that the court should engage in a jurisdictional or venuebased transfer — an argument the court rejected above.
243

28U.S.C. § 1407.

App. 17
transferee judge
otherwise. 244

or

the

Panel

directs

Accordingly, the court terminates this action without a
suggestion of remand.
III.

Conclusion

The court DENIES AS MOOT the Government’s
motion for order relating to the preservation of
documents and electronically stored information [37];
GRANTS the Government’s motion to dismiss [61];
GRANTS the Government’s motion to dismiss for lack
of subject-matter jurisdiction [62]; DENIES AS MOOT
the Plaintiffs’ motion for oral argument [72]; DENIES
AS MOOT Plaintiff Bryant’s motion to amend
complaint [77]; DENIES AS MOOT the Plaintiffs’
motion for extension of time to complete discovery and
to stay [83]; DENIES AS MOOT Plaintiff Johnston’s
pro se motion to amend [97]; DENIES Plaintiff Douse’s
pro se motion for reconsideration [117]; DENIES
Plaintiff Straw’s pro se motion for clerk’s entry of
default [121]; DENIES AS MOOT Plaintiff Douse’s
pro se motion to amend [123]; DENIES AS MOOT
Plaintiff Wright’s motion to amend complaint [126];
GRANTS the Government’s motion to dismiss all cases
based on North Carolina statute of repose [127];
DENIES Plaintiff Douse’s pro se motion for punitive
and exemplary damages [143]; DENIES AS MOOT
the Government’s motion to strike [152]; DENIES
Plaintiff Douse’s pro se motion for additional award of
damages, for relief based on Bivens, and for a
protective order [156]; DENIES AS MOOT Plaintiff
244

See Panel Rule 10.1(a).

App. 18
Bryant’s supplemental motion to amend [164];
DENIES Plaintiff Straw’s pro se motion for permanent
injunction [165]; DENIES Plaintiff Straw’s pro se
fourth motion for clerk’s entry of default [169];
GRANTS the Government’s motion for protective order
[172]; DENIES the Plaintiffs’ motion to transfer
pursuant to 28 U.S.C. § 1631 or motion for conditional
suggestion of remand [176]; DENIES Plaintiff Straw’s
pro se first motion for clerk’s entry of default [178];
DENIES AS MOOT the Plaintiffs’ motion for a
hearing [188]; and DENIES Plaintiff Straw’s pro se
motion for refund and further relief [192].
The Clerk of the Court is DIRECTED to DISMISS
this action.
SO ORDERED, this 5 day of December, 2016.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

App. 19

APPENDIX C
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 12-15424
D.C. Docket No. l:ll-md-02218-JOF
[Filed October 14, 2014]
ERICA Y. BRYANT,
LEANDRO PEREZ,
INGRID PEREZ JACIR,
JOHN EDWARDS, as Father and
next friend of his daughter,
decedent Jennifer Edwards,
CONNIE EDWARDS, as Mother and
next friend of her daughter,
decedent Jennifer Edwards, et al.,
Plaintiffs - Appellees,
Cross Appellants,
JAMES NATHANIEL DOUSE,
Plaintiff — Appellee,
versus
UNITED STATES OF AMERICA,
Defendant — Appellant,
Cross Appellee.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 20
Appeals from the United States District Court
for the Northern District of Georgia
(October 14, 2014)
Before TJOFLAT and WILSON, Circuit Judges, and
BUCKLEW,* District Judge.
TJOFLAT, Circuit Judge:
This appeal arises out of a multi-district litigation,
in which multiple plaintiffs and their family members
allege that they experienced various health problems
after being exposed to toxic substances in the drinking
water while living at Camp Lejeune, a military base in
North Carolina. The plaintiffs brought this action
against the United States under the Federal Tort
Claims Act, 28U.S.C. §§ 2671—2680. The United States
moved to dismiss the case, arguing that the North
Carolina statute of repose, which provided that “no
cause of action shall accrue more than 10 years from
the last act or omission of the defendant giving rise to
the cause of action,” N.C. Gen. Stat. § 1-52(16) (2010),
precluded the plaintiffs from bringing this case.1

* Honorable Susan C. Bucklew, United States District Judge for
the Middle District of Florida, sitting by designation.
1 The Government also sought to dismiss the plaintiffs’ complaints
on the grounds that their claims are barred by the Feres doctrine
and that any post-discharge failure-to-warn claims are barred by
the discretionary-function exception to the Federal Tort Claims
Act. The District Court only addressed and certified the
statute-of-repose issue to this court. Consequently, we do not
discuss, and we express no opinion on, the Government’s other
asserted defenses.

App. 21
The District Court disagreed, concluding that a
provision of the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA),
42 U.S.C. § 9568,2 preempted North Carolina’s statute
of repose. The court separately ruled that North
Carolina’s statute of repose does not contain an
exception for latent diseases.
The District Court then certified two questions for
interlocutory appeal,3 and this court permitted the
2 The relevant provision of CERCLA, 42 U.S.C. § 9568(a)(1),
provides:
In the case of any action brought under State law for
personal injury, or property damages, which are caused or
contributed to by exposure to any hazardous substance, or
pollutant or contaminant, released into the environment
from a facility, if the applicable limitations period for such
action (as specified in the State statute of limitations or
under common law) provides a commencement date which
is earlier than the federally required commencement date,
such period shall commence at the federally required
commencement date in lieu of the date specified in such
State statute.
“The term ‘applicable limitations period’ means the period
specified in a statute of limitations during which a civil action
referred to in subsection (a)(1) of this section may be brought.” IcL
§ 9568(b)(2). “The term ‘commencement date’ means the date
specified in a statute of limitations as the beginning of the
applicable limitations period.” IcL § 9568(b)(3). “[T]he term
‘federally required commencement date’ means the date the
plaintiff knew (or reasonably should have known) that the personal
injury or property damages referred to in subsection (a)(1) of this
section were caused or contributed to by the hazardous substance
or pollutant or contaminant concerned.” Id. § 9658(b)(4)(A).
3 28 U.S.C. § 1292(b) provides that in a civil action, a district court
may certify a question of law to a court of appeals if the district

App. 22
appeal. The two questions presented are (I) whether
CERCLA preempts the North Carolina statute of
repose, and (II) whether the North Carolina statute of
repose contains an exception for latent diseases. We
address each question in turn.
I.
After the parties briefed this case, but before oral
argument, the Supreme Court granted a petition for a
writ of certiorari in a separate case out of the Fourth
Circuit, which presented the question of whether
CERCLA preempts North Carolina’s statute of repose.4
On June 9, 2014, the Court determined that CERCLA,
specifically 42 U.S.C. § 9658, does not preempt North
Carolina’s statute of repose. See generally CTS Corp. v.
Waldburger,
U.S.
, 134 S. Ct. 2175, 189 L. Ed.
2d 62 (2014). Thus, we have the answer to the first
question presented in this interlocutory appeal.
CERCLA does not preempt North Carolina’s statute of
repose.

court concludes that an order not otherwise appealable “involves
a controlling question of law as to which there is substantial
ground for difference of opinion and that an immediate appeal
from the order may materially advance the ultimate termination
of the litigation.”
4 The Fourth Circuit decided that CERLCA preempted the statute
of repose. See Waldburger v. CTS Corp., 723 F.3d 434,444-45 (4th
Cir. 2013), rev’d, _ U.S.___, 134 S. Ct. 2175, 189 L. Ed. 2d 62
(2014). Because the plaintiffs in the case brought a nuisance
action, the court did not address the issue of whether the North
Carolina statute of repose contained an exception for latent
diseases.

App. 23
II.
We must, therefore, turn to the second question
presented in this appeal, whether the North Carolina
statute of repose includes an exception for latent
diseases. At the time the plaintiffs brought this action,
the statute of repose provided:
Unless otherwise provided by statute, for
personal injury or physical damage to claimant’s
property, the cause of action ... shall not accrue
until bodily harm to the claimant or physical
damage to his property becomes apparent or
ought reasonably to have become apparent to
the claimant, whichever event first occurs.
Provided that no cause of action shall accrue
more than 10 years from the last act or omission
of the defendant giving rise to the cause of
action.
N.C. Gen. Stat. § 1-52(16) (2010). On its face, the text
of the statute contains no exception for latent diseases,
and no other North Carolina statute excepts latent
diseases from the statute of repose. The plain text of
the statute is unambiguous.5
5 The plaintiffs rely on Jones v. United States, 751 F. Supp. 2d 835
(E.D.N.C. 2010), to support their contention that the statute of
repose was ambiguous as to whether it contained a latent-disease
exception. Although the District Court in that case held that the
statute of repose did not apply to latent diseases, it reached that
conclusion by bypassing the statutory text entirely. See id. at 836
(“The Court finds that § l-52(16)’s statute of repose has an
exception for latent diseases. The Court bases this decision on the
statute’s legislative history, case law, and state public policy.”). In
an order denying the defendant’s motion for reconsideration, the
court confirmed that the statute’s text did not provide an exception

App. 24
Shortly after the Supreme Court decided
Waldburger, however, the Governor of North Carolina
approved Session Law 2014-17, which amended the
statute of repose. The General Assembly also passed,
and the Governor signed, Session Law 2014-44, which
made several technical amendments to Session Law
2014-17.6 We then requested supplemental briefing
for latent diseases; it ignored the text, however, because, according
to the court, “[ajdopting § l-52(16)’s literal meaning would lead to
absurd results.” Jones v. United States. No. 7:09-CV-106,2011WL
386955, at *2 (E.D.N.C. Feb. 3, 2011).
The absurd result, according to the court, was that potential
claimants would be denied an opportunity to seek relief before they
became aware that they were ill. But that is the point of a statute
of repose; it “bar[s] any suit that is brought after a specified time
since the defendant acted . . . , even if the period ends before the
plaintiff has suffered a resulting injury.” Black’s Law Dictionary
1546 (9th ed. 2009). “Statutes of repose effect a legislative
judgment that a defendant should be free from liability after the
legislatively determined period of time.” CTS Corp. v. Waldburger,
U.S.
___, 134 S. Ct. 2175, 2183, 189 L. Ed. 2d 62 (2014)
(quotation marks omitted).
“When the words of a statute are unambiguous . . . judicial
inquiry is complete.” Merritt v. Dillard Paper Co., 120 F.3d 1181,
1186 (11th Cir. 1997) (internal quotation marks omitted); see also
Carolina Power & Light Co. v. City of Asheville, 358 N.C. 512, 518,
597 S.E.2d 717, 722 (2004) (“Where the statutory language is clear
and unambiguous, the Court does not engage in judicial
construction but must apply the statute to give effect to the plain
and definite meaning of the language.” (internal quotation marks
omitted)). Here, the statutory language is plain. We therefore
decline to follow Jones in conjuring an exception where the plain
text of the statute of repose provides none.
6 Session Law 2014-44 is titled “An Act to Make Technical
Amendments to Session Law 2014-17.” However, one of the
amendments, which removed a sunset provision that set Session

App. 25
from the parties on the following question: Whether, in
light of the enactment of N.C. Session Laws 2014-17
and 2014-44, the plaintiffs’ actions are barred by North
Carolina’s statute of repose (N.C. Gen. Stat.
§ 1-52(16))?7
The statute of repose now reads:
Unless otherwise provided by law, for personal
injury or physical damage to claimant’s
property, the cause of action ... shall not accrue
until bodily harm to the claimant or physical
damage to his property becomes apparent or
ought reasonably to have become apparent to
the claimant, whichever event first occurs.
Except as provided in G.S. 130A-26.3, no cause
of action shall accrue more than 10 years from
the last act or omission of the defendant giving
rise to the cause of action.
N.C. Gen. Stat. Ann. § 1-52(16) (West 2014) (emphasis
added). The session law added a new section to the
North Carolina General Statutes, § 130A-26.3, which
provides: “The 10-year period set forth in G.S. 1-52(16)
shall not be construed to bar an action for personal
injury, or property damages caused or contributed to
by . . . the consumption, exposure, or use of water
Law 2014-17 to expire on June 19, 2023, seems more substantive
than technical. For ease of discussion, we refer to Session Law
2014-44 except where specifically noted.
7 Even if we were so inclined, we are unable to certify this question
to the North Carolina Supreme Court because “North Carolina
currently has no mechanism for us to certify questions of state law
to its Supreme Court.” Town of Nags Head v. Toloczko, 728 F.3d
391, 398 (4th Cir. 2013).

App. 26
supplied from groundwater contaminated by a
hazardous substance, pollutant, or contaminant.” N.C.
Gen. Stat. Ann. § 130A-26.3.8
The General Assembly expressly made Session Law
2014-44 apply to actions “filed, arising, or pending” on
or after June 20, 2014, the statute’s effective date. N.C.
Sess. L. 2014-44, § 1(c) (amending N.C. Sess. L.
2014-17, § 4). Under the law, an action is pending “if
there has been no final disposition with prejudice and
mandate issued against that plaintiff issued by the
highest court of competent jurisdiction where the claim
was timely filed or appealed as to all the plaintiffs
claims for relief to which this act otherwise applies.” Id,
In this case, the United States Supreme Court is the
highest court of competent jurisdiction, and it has not
issued a final disposition with prejudice, nor has a
mandate issued from that Court. As such, the amended
statute of repose would appear to apply to the instant
appeal.
The Government disagrees. It contends that the
North Carolina General Assembly is without authority
to revive the plaintiffs’ claims after the repose period
has passed. Under North Carolina law, a statute may
be applied retroactively “only insofar as it does not
impinge upon a right which is otherwise secured,
established, and immune from further legal

8 <i

For purposes of this section, ‘contaminated by a hazardous
substance, pollutant, or contaminant’ means the concentration of
the hazardous substance, pollutant, or contaminant exceeds a
groundwater quality standard set forth in 15A NCAC 2L .0202.”
N.C. Gen. Stat. Ann. § 130A-26.3 (West 2014).

App. 27
metamorphosis.” Gardner v. Gardner, 300 N.C. 715,
719, 268 S.E.2d 468, 471 (1980).
The Government directs us to McCrater v. Stone &
Webster Engineering Corp., 248 N.C. 707, 104 S.E.2d
858 (1958), in which the North Carolina Supreme
Court considered whether a statute extending the time
limitation to file a workmen’s compensation claim from
one year to two years could be applied retroactively to
claims filed more than one year but less than two years
from the date of the accident. In other words, if the
amendment applied retroactively, the claim would be
timely; if not, the claim would be untimely. According
to the North Carolina Supreme Court, the time limit to
file a workmen’s compensation claim was a condition
precedent rather than a procedural statute of
limitations. LI at 708, 104 S.E.2d at 860. The court
then held that the statute could not apply retroactively
because the limitation period was “a part of the
plaintiffs substantive right of recovery, [and] could not
be enlarged by subsequent statute.” IcL at 709-10, 104
S.E.2d at 860. The reason, the court explained, was
that any attempt to revive an expired claim “would . . .
deprive the defendants of vested rights.” IcL at 710,104
S.E.2d at 860.9
Like the time limitation in McCrater, North
Carolina’s statute of repose is a substantive limit on a

9 The North Carolina Supreme Court has also held that “[a] right
or remedy, once barred by a statute of limitations, may not be
revived by an Act of the General Assembly,” Waldrop v. Hodges,
230 N.C. 370, 373, 53 S.E.2d 263, 265 (1949), because doing so
“takes away vested rights of defendants,” Wilkes Cnty. v. Forester,
204 N.C. 163, 170, 167 S.E. 691, 695 (1933).

App. 28
plaintiffs right to file an action. See Boudreau v.
Baughman. 322 N.C. 331, 340, 368 S.E.2d 849, 857
(1988) (“Ordinary statutes of limitation are clearly
procedural, affecting only the remedy directly and not
the right to recover. The statute of repose, on the other
hand, acts as a condition precedent to the action itself.”
(citations omitted)). As a result, the repose limitation
“is an inseparable part of the plaintiffs substantive
right of action.” McCrater, 248 N.C. at 710, 104 S.E.2d
at 861. And like the limitations period in McCrater, the
General Assembly may not enlarge the plaintiffs’ claim
by statute because to do so would be to divest the
Government of a vested right.
The plaintiffs argue that McCrater is inapposite
because here it was unclear whether the original
statute of repose’s reference to “personal injury”
encompassed claims for diseases. According to the
plaintiffs, Session Law 2014-44 merely clarified the
scope of the statute of repose. Whether the statute
clarified or altered the statute of repose is relevant
because under North Carolina law, clarifying
amendments apply retroactively, whereas altering
amendments do not. See Ray v. N.C. Dep’t of Transp.,
366 N.C. 1, 9, 727 S.E.2d 675, 681 (2012). The
Government does not have a vested right in the
interpretation of the statute of repose, the plaintiffs
contend, because there is no final judgment. And to
hold that the Government has a vested right would be
inconsistent with the rule that a clarifying amendment
“does not change the substance of the law but instead
gives further insight into the way in which the

App. 29
legislature intended the law to apply from its original
enactment.” Id.10
At the outset, we disagree that the original statute
of repose was ambiguous with respect to a
latent-disease exception. See supra at 5. However, we
hesitate to dismiss out of hand the plaintiffs’ argument
that Session Law 2014-44 clarifies, rather than
substantively amends, the statute of repose. Session
Law 2014-17 is titled “An Act Clarifying that Certain
10 To support their claim that the Government does not have a
vested right, the plaintiffs cite Bowen v. Mabry, 154 N.C. App. 734,
572 S.E.2d 809 (2002), which considered whether a statutory
amendment providing that a pending action for equitable
distribution does not abate upon the death of a party could apply
retroactively to a claim that was pending when the amendment
was enacted. The North Carolina Court of Appeals determined
that the amendment was clarifying, and that the defendant did not
have a vested right because “[t]here ha[d] been no judgment
dismissing Plaintiff s claim prior to the effective date of the Act,
and the abatement of an action is not a right ‘immune from . . .
legal metamorphosis.’” Id. at 737, 572 S.E.2dat811 (last alteration
in original) (quoting Gardner v. Gardner, 300 N.C. 715, 719, 268
S.E.2d 468, 471 (1980)).
The lack of an order dismissing the claim is not dispositive, for
in McCarter there had been no dismissal prior to the statutory
amendment. Similarly, in Waldrop and Wilkes County, the
defendants’ rights did not vest because of an order of dismissal;
they vested when the limitations period expired. As in all three
cases, the statute of repose at issue in this case creates a vested
right ten years after the last act or omission giving rise to the
cause of action. And while the abatement of an action may not be
a right immune from legal metamorphosis, the right not to be sued
after the relevant limitations period has passed certainly is,
regardless of whether the time limitation is substantive or
procedural. See McCrater, 248 N.C. at 709—10, 104 S.E.2d at 860;
Waldrop, 230 N.C. at 373, 53 S.E.2d at 265.

App. 30
Civil Actions Relating to Groundwater Contamination
Are Not Subject to the Ten-Year Statute of Repose Set
Forth in G.S. 1-52,” and the title of a law provides some
evidence of legislative intent. Cf. Smith Chapel Baptist
Church v. City of Durham, 350 N.C. 805, 812, 517
S.E.2d 874, 879 (1999) (explaining that even when the
text of a statute is plain, “the title of an act should be
considered in ascertaining the intent of the
legislature”).
Moreover, in § 1 of the session law, the General
Assembly found that prior to the Supreme Court’s
decision in Waldburger, “there was ambiguity and
uncertainty regarding the effect of federal law on the
North Carolina statute of repose in certain
environmental cases.” N.C. Sess. L. 2014-44, § l.11 The
legislature also found that “it was the intent of the
General Assembly to maximize under federal law the
amount of time a claimant had to bring a claim
predicated on exposure to a contaminant regulated by
federal or State law.” hi Furthermore, the General
Assembly found the Supreme Court’s decision in
Waldburger to be “inconsistent with the General
Assembly’s intentions and the General Assembly’s
understanding of federal law” and that “it never
intended the statute of repose in G.S. 1-52(16) to apply
11 It is not clear what sort of ambiguity the General Assembly was
referring to because the federal law at issue in Waldburger was
enacted seven years after North Carolina enacted its statute of
repose in 1979. See Superfund Amendments and Reauthorization
Act of 1986, Pub. L. 99-499, § 203,100 Stat. 1613,1695 (adding 42
U.S.C. § 9658). In other words, at the time the statute of repose
was enacted, the federal law at issue in Waldburger would have
had no effect on the statute of repose.

App. 31
to claims for latent disease caused or contributed to by
groundwater contamination, or to claims for any latent
harm caused or contributed to by groundwater
contamination.” IcL Finally, there is the fact that the
General Assembly expressly made the statute
retroactive. Although inclusion of an effective date,
standing alone, may not prove that an amendment is
intended to be clarifying or altering, see Ray, 366 N.C.
at 9-10, 727 S.E.2d at 682, the fact that the General
Assembly expressly made Session Law 2014-44
retroactive lends further support to the conclusion that
the amendment is clarifying and that it applies to the
plaintiffs’ claims.12
12 Beyond the text, the law’s legislative history also demonstrates
that the General Assembly sought to clarify the scope of the
statute of repose. While the House of Representatives discussed
Senate Bill 574, which would ultimately become Session Law 201417, one representative exclaimed that “the action we will take . . .
is strictly one of clarifying the intent of this body, in regards to how
that statute of repose can be interpreted moving forward and how
it should have been interpreted since its inception.” N.C. H. Rep.
Discussion of S.B. Bill 574, at 4 (June 13, 2014) (statement of Rep.
Glazer) (emphasis added). Summarizing the Supreme Court’s
decision in Waldburger, that same representative explained it “was
never our intent” to limit people exposed to contaminated
groundwater to a maximum of ten years to file a claim. Id at 3. In
the Senate, a senator explained:
What we’re doing today is we’re just making sure that we
as the General Assembly clarify the text of the statute in
order to protect the original intent of the 1979 Act’s
drafters. And what we’re dealing with in a couple parts of
the state are groundwater contamination claims. And
what separates them from the original intent of this - of
the bill that was passed in 1979, is that groundwater
contamination claims, unlike product liability claims, arise
from unknown exposures — well, by unknown elements at

App. 32
“To determine whether the amendment clarifies the
prior law or alters it requires a careful comparison of
the original and amended statutes.” Ferrell v. Dep’t of
Transp., 334 N.C. 650, 659,435 S,E.2d 309, 315 (1993).
“If the statute initially ‘fails expressly to address a
particular point’ but addresses it after the amendment,
‘the amendment is more likely to be clarifying than
altering.’” Ray, 366 N.C. at 10, 727 S.E.2d at 682
(quoting Ferrell, 334 N.C. at 659, 435 S.E.2d at 315).
However, “it is logical to conclude that an amendment
to an unambiguous statute indicates the intent to
change the law.” Childers v. Parker’s, Inc., 274 N.C.
256, 260, 162 S.E.2d 481, 484 (1968).
Comparing the two statutes, it is clear that the
amended statute of repose contains a brand new
exception for groundwater claims. This is not a case
where the General Assembly merely failed to address
a particular point—whether groundwater
contamination claims fall under the statute of repose—
only to address it later. In Ferrell, the North Carolina
Supreme Court held that a statute setting out the
manner of determining the price at which the
Department of Transportation would sell a parcel of
property was clarifying because the original statute
directing the Department to sell parcels provided no
unknown times, and so they have latency periods that can
be decades long, unlike products. And that the intent of
the original bill back in 1979 was to deal with products.
They never conceived they would be dealing with
groundwater contamination claims. And all we’re doing is
clarifying that for anyone who might look at our law.
N.C. S. Discussion of S.B. 574, at 3-4 (June 18, 2014) (statement
of Sen. Goolsby) (emphasis added).

App. 33
express guidance as to selling price. Ferrell, 334 N.C.
at 659, 435 S.E.2d at 315. In other words, the clarifying
statute filled a hole left by the original statute. Here,
by contrast, the General Assembly created a
substantively distinct exception from whole cloth. That
the legislature saw itself as clarifying the scope of the
statute of repose is not irrelevant. But just because the
General Assembly said it was clarifying the scope of the
statute of repose does not make it so. “It is this Court’s
job to determine whether an amendment is clarifying
or altering.” Ray, 36,6 N.C. at 9, 727 S.E.2d at 681. In
this case, the original statute of repose was
unambiguous, and it gave no indication that an
exception existed for latent diseases. Thus, it is
reasonable to conclude the subsequent amendment was
substantive. See Childers, 274 N.C. at 260, 162 S.E.2d
484. Session Law 2014-44 did not adopt the plaintiffs’
proposed distinction between latent diseases and other
types of claims; instead, it created one for groundwater
contamination claims generally, and there is no
question that this exception is new.
Session Laws 2014-17 and 2014-44 substantively
amended the statute of repose to create an exception
for groundwater contamination and, as a result, can
only apply prospectively, lest they divest the
Government of a vested right. See Me Crater, 248 N.C.
at 709-10, 104 S.E.2d at 860.
ickic

We therefore have the answer to both questions
presented in this interlocutory appeal. First, CERCLA,
42 U.S.C. § 9658, does not preempt statutes of repose.
See generally CTS Corp. v. Waldburger,
U.S.

App. 34
134 S. Ct. 2175, 189 L. Ed. 2d 62 (2014). Second, North
Carolina’s statute of repose, N.C. Gen. Stat. § 1-52(16)
(2010), applies to the plaintiffs’ claims, and it does not
contain an exception for latent diseases.13
This case is REMANDED for further proceedings
consistent with this opinion.
SO ORDERED.

13 In their supplemental brief to this court, the plaintiffs contend
that genuine issues of material fact exist as to whether the
Government’s last act or omission occurred within ten years. We
did not authorize the appeal of that question and thus do not
address it.

App. 35

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-17573-GG
[Filed September 5, 2019]
In Re: CAMP LEJEUNE, NORTH CAROLINA
WATER CONTAMINATION LITIGATION.
LEANDRO PEREZ, et al„
Plaintiffs,
ANDREW STRAW
JAMES NATHANIEL DOUSE,
ERICA Y. BRYANT,
ROBERT BURNS,
DANIEL J. GROSS, II,
ROBERT PARK,
SHARON KAY BOLING,
LINDA JONES,
ESTELLE RIVERA,
Plaintiffs - Appellants,
versus
UNITED STATES OF AMERICA,
DEPARTMENT OF THE NAVY,
United States of America,
ADMINISTRATOR OF THE

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 36
ENVIRONMENTAL PROTECTION AGENCY,
DIVISION DIRECTOR, DEPARTMENT OF
ENVIRONMENTAL PROTECTION AGENCY,
DEPARTMENT OF DEFENSE, SECRETARY
OF THE NAVY,
Defendants - Appellees.

)
)
)
)
)
)

Appeal from the United States District Court
for the Northern District of Georgia
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: TJOFLAT, MARTIN and NEWSOM, Circuit
Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petitions for Panel Rehearing are
also denied. (FRAP 40)
ENTERED FOR THE COURT:
s/

UNITED STATES CIRCUIT JUDGE
ORD-46

App. 37

APPENDIX E
PLAINTIFF MOTION FILED IN FULTON COUNTY
COURT RE: HIPAA VIOLATION LITIGATION
(NOVEMBER 23, 2016)
IN THE STATE OF GEORGIA FULTON COUNTY
STATE COURT ATLANTA DIVISION
JAMES NATHANIEL DOUSE )
Plaintiff, Pro Se
)
v.
ADAM BAIN,
Defendant(s)

)
)
)
)
)

Case number: 16EV004542
HIPPA VIOLATION LITIGATION
Plaintiff Motion For a Final Judgment in this
Defaulted civil action
Plaintiff Motion for Interest and Costs.
Plaintiff Motion for Relief from Final Judgment which
is Constitutional and within the Law and to Enter
Final Judgement and Dispose of Case

App. 38
GA Code.§ 51-12-14 (2015)
“Interest after 30 days
(a) Where a claimant has given written notice by
registered or certified mail or statutory overnight
delivery to a person against whom claim is made of
a demand for an amount of unliquidated damages
in a tort action and the person against whom such
claim is made fails to pay such amount within 30
days from the mailing or delivering of the notice,
the claimant shall be entitled to receive interest on
the amount demanded if, upon trial of the case in
which the claim is made, the judgment is for an
amount not less than the amount demanded.”
O.C.G.A. 9-11-55 (2010) 9-11-55. Default judgment
(a) “When case in default; opening as matter of
right; judgment. If in any case an answer has not
been filed within the time required by this chapter,
the case shall automatically become in default
unless the time for filing the answer has been
extended as provided by law. The default may be
opened as a matter of right by the filing of such
defenses within 15 days of the day of default, upon
the payment of costs. If the case is still in default
after the expiration of the period of 15 days, the
plaintiff at any time thereafter shall be entitled to
verdict and judgment by default, in open court or in
chambers, as if every item and paragraph of the
complaint or other original pleading were supported
by proper evidence, without the intervention of a
jury, unless the action is one ex delicto or involves
unliquidated damages, in which event the plaintiff

App. 39
shall be required to introduce evidence and
establish the amount of damages before the court
without a jury, with the right of the defendant to
introduce evidence as to damages and the right of
either to move for a new trial in respect of such
damages; provided, however, in the event a
defendant, though in default, has placed damages in
issue by filing a pleading raising such issue, either
party shall be entitled, upon demand, to a jury trial
of the issue as to damages. An action based upon
open account shall not be considered one for
unliquidated damages within the meaning of this
Code section.”
“It should be noted that other than the fifteen (15) day
grace period provided by O.C.G.A. § 9-ll-55(a), the
Court is not required to grant motions to open default.”
Defense 15 days Began November 08, 2016 and expired
on November 22, 2016
“The party seeking entry of a default judgment in
any action shall certify to the court the date and type
of service effected and that no defensive pleading has
been filed by the defendant as shown by court records.
This certificate shall be in writing and must be
attached to the proposed default judgment when
presented to the judge for signature.”
Federal Rules of Civil Procedure >
TITLE VII. JUDGMENT
“Rule 55. Default; Default Judgment
(a) Entering a Default. When a party against whom
a judgment for affirmative relief is sought has failed to

App. 40
plead or otherwise defend, and that failure is shown by
affidavit or otherwise, the clerk must enter the party’s
default.”
(b) Entering a Default Judgment.
“(1) By the Clerk. If the plaintiffs claim is for a sum
certain or a sum that can be made certain by
computation, the clerk—on the plaintiffs request,
with an affidavit showing the amount due—must
enter judgment for that amount and costs against a
defendant who has been defaulted for not appearing
and who is neither a minor nor an incompetent
person.”
“(2) By the Court. In all other cases, the party must
apply to the court for a default judgment. A default
judgment may be entered against a minor or
incompetent person only if represented by a general
guardian, conservator, or other like fiduciary who
has appeared. If the party against whom a default
judgment is sought has appeared personally or by a
representative, that party or its representative
must be served with written notice of the
application at least 7 days before the hearing. The
court may conduct hearings or make referrals—
preserving any federal statutory right to a jury
trial—when, to enter or effectuate judgment, it
needs to:”
(A) conduct an accounting;
(B) determine the amount of damages;
(C) establish the truth of any allegation by
evidence; or
(D) investigate any other matter.

App. 41
In Conclusion,
HIPAA Enforcement
“HMS’ Office for Civil Rights is responsible for
enforcing the Privacy and Security Rules. Enforcement
of the Privacy Rule began April 14, 2003 for most
HIPAA covered entities. Since 2003, OCR’s
enforcement activities have obtained significant results
that have improved the privacy practices of covered
entities. The corrective actions obtained by OCR from
covered entities have resulted in systemic change that
has improved the privacy protection of health
information for all individuals they serve.”
“Preemption. In general, State laws that are
contrary to the Privacy Rule are preempted by' the
federal requirements/which means that the federal
requirements will apply. 85 “Contrary” means that it
would be impossible for a covered entity to comply with
both the State and federal requirements, or that the
provision of State law is an obstacle to accomplishing
the full purposes and objectives of the Administrative
Simplification provisions of HIPAA.86 The Privacy
Rule provides exceptions to the general rule of federal
preemption for contrary State laws that (1) relate to
the privacy of individually identifiable health
information and provide”
“greater privacy protections or privacy rights with
respect to such information, (2) provide for the
reporting of disease or injury, child abuse, birth, or
death, or for public health surveillance, investigation,
or intervention, or (3) require certain health plan
reporting, such as for management or financial audits.”

App. 42
“Protected Health Information. The Privacy Rule
protects all “individually identifiable health
information” held or transmitted by a covered entity or
its business associate, in any form or media, whether
electronic, paper, or oral. The Privacy Rule calls this
information “protected health information (PHI).”
“Individually identifiable health information” is
information, including demographic data.”
1). Wherefore The Combines causes of Action in this
State Complaint, Plaintiff demands Judgment against
Defendant for: $20,000,000.00 (Twenty Million
Dollars).
la). Plus Interest
Plus Costs
lb). Plaintiff
Demand Punitive Damages
$250,000.00 and or two to three times this
amount,
is the norm for Civil cases as this Court
allows.
lc). Plaintiff Demands Trial by Jury
2). Plaintiff Demanding Permanent Injunctional
Relief (Witness Protection Program);
Provided Plaintiff with New Personal Demographics
By and through the U.S. Marshal’s Office.
The Defense having Damaged Plaintiffs current
Demographics and is not Repairable or Irretrievable.
Transferring Funds Instructions and Demands:
3). STEP FIVE: Transferring of Funds
Transferring Funds Instructions and Demands:
Within ten (10) days after receiving the Complainants’
signed releases, Defendant will: send Bank Wiring
(Instructions) to the Plaintiff for wiring of funds of

App. 43
$20,000,000.00 (Twenty Million Dollars) Plus Punitive
Damages
4). Or send check(s) made out to the Plaintiff in
Lump sum in the amount of $20,000,000.00 (Twenty
Million Dollars) Plus
4b). Punitive Damages of $250,000.00
Hundred Fifty Thousand or More)

(Two

This Wiring of Funds or check(s) send is for
compensation to the Complainant pursuant to 42
U.S.C. § 12133.
The check(s) will be mailed ***Certified Mail*** or
***Overnight Delivery*** Payable to:
James Nathaniel Douse
718 Thompson Lane
Bldg 108 Unit 124
Nashville, TN. 37204
5). Defendant will not Withhold Taxes Defendant will
not withhold taxes from the monetary award and the
Complainant will accept full responsibility for taxes
due and owing, if any, on such funds. Defendant will
issue to the Complainant an IRS Form 1099 reflecting
the amount paid to the Complainant.
6). Retaliatory and or Coercion
Regarding Retaliation and or Coercion, The Defendant
shall not retaliate against or coerce in any way against
the Complainant.
Accordingly, All of Plaintiff Request and Instructions
should be Granted. So certified this 23th day of
November 2016.

App. 44
Respectfully,
Is/ James Nathaniel Douse, Sr.
615-848-4415
718 Thompson Lane
Bldg 108 Unit 124
Nashville, TN. 37204

App. 45

APPENDIX F
MISAPPLICATION OF LAW BY ELEVENTH
CIRCUIT COURT OF APPEALS MAY 22, 2019
RULING [UNPUBLISHED] NOTED
1). THE 11TH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF CASE LAW:
“In accordance with the Supreme Court’s decision in
Berkovitz by Berkovitz v. United States, 486 U.S. 531,
535, 108 S.Ct. 1954, 1958, 100 L.Ed.2d 531 (1988), this
court utilizes a two-step test to determine whether the
FTCA discretionary function exception applies in a
given case. See Kennewick Irrigation District v. United
States, 880 F.2d 1018, 1025 (9th Cir. 1989). We must
consider first whether the challenged action is a matter
of choice for the acting employees: “[T]he discretionary
function exception will not apply when a federal
statute, regulation, or policy specifically prescribes a
course of action for an employee to follow”
** THE 11TH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF NORTH CAROLINA Gen.
Stat. § 1-52(16) (2010) 10-year Statute of Repose and
Feris Doctrine and Discretionary Function Exception.
** THE 11TH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF 28 U.S.C. § 2674; see also
§ 1346(b)(1) (the United States may be held liable)
2). THE 11TH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF North Carolina General

App. 46
Statutes Chapter 99B: Products Liability. § 99B5(a)(l)
and § 99B-5(a)(2): Claims based on inadequate warning
or instruction
3). THE 11TH CIRCUIT COURT OF APPEALS
MISAPPLICATION OF NORTH CAROLINA’S
MANDATORY DISABILITY DIRECTIVES
North Carolina Disability § 1-19;
North Carolina Disability § 1-20;
North Carolina Disability § 1-17 AND
. . . and North Carolina Disability Definitions 35A1101(7) and (8)

App. 47

APPENDIX G
N.C. DISABILITY STATUTES
** North Carolina Disability
MANDATORY DIRECTIVE

Statutes

is

a

**

This court has entered a decision in conflict with the
decision of another United States court of appeals AND
a State Court on the same important matter; SEE:
DECEMBER 20,2016 NORTH CAROLINA COURT OF
APPEALS COA-16-481 DELVON R. GOODWIN, see
Page 6 highlighted vs. FOUR COUNTY ELECTRIC
CARE TRUST, INC NORTH CAROLINA TEN-YEAR
STATUTE OF REPOSE
** In support of Petitioner is the United Stated
Supreme Court holding “In accordance with the
Supreme Court’s decision in Berkovitz by Berkovitz v.
United States, 486 U.S. 531, 535, 108 S.Ct. 1954, 1958,
100 L.Ed.2d 531 (1988), this court utilizes a two-step
test to determine whether the FTCA discretionary
function exception applies in a given case. See
Kennewick Irrigation District v. United States, 880
F.2d 1018, 1025 (9th Cir. 1989). We must consider first
whether the challenged action is a matter of choice for
the acting employees: “[T]he discretionary function
exception will not apply when a federal statute,
regulation, or policy specifically prescribes a course of
action for an employee to follow”

App. 48
** Failure to Warn Post Discharge as a Private Citizen:
G.S. 99B-6 § 99B-6. Claims based on inadequate design
or formulation.
G.S. 99B-5 § 99B-5. Claims based on inadequate
warning or instruction. §99B-5(a)(l) and §99B-5(a)(2).
NC General Statutes -Chapter 1 Article 3
Subchapter II. Limitations
Article 3. Limitations, General Provisions
* §1-17. Disabilities
(a) A person entitled to commence an action who is
under a disability at the time the cause of action
accrued may bring his or her action within the time
limited in this Subchapter, after the disability is
removed, except in an action for the recovery of real
property, or to make an entry or defense founded on the
title to real property, or to rents and services out of the
real property, when the person must commence his or
her action, or make the entry, within three years next
after the removal of the disability, and at no time
thereafter.
For the purpose of this section, a person is under a
disability if the person meets one or more of the
following conditions:
(1) The person is within the age of 18 years.
(2) The person is insane.
(3) The person is incompetent as defined in G.S. 35A1101(7) or (8).
(al) For those persons under a disability on January 1,
1976, as a result of being imprisoned on a criminal
charge, or in execution under sentence for a criminal

1

I

App. 49
offense, the statute of limitations shall commence to
run and no longer be tolled from January 1, 1976.
(b) Notwithstanding the provisions of subsection (a) of
this section, and except as otherwise provided in
subsection (c) of this section, an action on behalf of a
minor for malpractice arising out of the performance of
or failure to perform professional services shall be
commenced within the limitations of time specified in
G.S. 1-15(c), except that if those time limitations expire
before the minor attains the full age of 19 years, the
action may be brought before the minor attains the full
age of 19 years.
(c) Notwithstanding the provisions of subsection (a) and
(b) of this section, an action on behalf of a minor for
injuries alleged to have resulted from malpractice
arising out of a health care provider’s performance of or
failure to perform professional services shall be
commenced within the limitations of time specified in
G.S. l-15(c), except as follows:
If the time limitations specified in G.S. l-15(c)
(1)
expire before the minor attains the full age of 10
years, the action may be brought any time before
the minor attains the full age of 10 years.
(2)

If the time limitations in G.S. 1- 15(c) have
expired and before a minor reaches the full age
of 18 years a court has entered judgment or
consent order under the provisions of Chapter
7B of the General Statutes finding that said
minor is an abused or neglected juvenile as
defined in G.S. 7B-101, the medical malpractice
action shall be commenced within three years
from the date of such judgment or consent order,

I

App. 50
or before the minor attains the full age of 10
years, whichever is later.
(3)

If the time limitations in G.S. l-15(c) have
expired and a minor is in legal custody of the
State, a county, or an approved child placing
agency as defined in G.S. 131D-10.2, the medical
malpractice action shall be commenced within
one year after the minor is no longer in such
legal custody, or before the minor attains the full
age of 10 years, whichever is later. (C.C.P.,
ss. 27, 142; Code, ss. 148, 163; 1899, c. 78; Rev.,
s. 362; C.S., s. 407; 1971, c. 1231, s. 1; 1975,
c. 252, ss. 1, 3; 1975, 2nd Sess., c. 977, s. 3; 1987,
c. 798; 2001-487, s. 1; 2011-400, s. 9.)

* § 1-19. Cumulative Disabilities
When two or more disabilities coexist at the time
the right of action accrues, or when one disability
supervenes an existing one, the limitation does not
attach until they all are removed. (C.C.P., ss. 28, 49;
Code, ss. 149, 170; Rev., s. 364; C.S., s. 409.)
* § 1-20. Disability Must Exist When Right of
Action Accrues
No person may avail himself of a disability except
as authorized in G.S. 1-19, unless it existed when
his right of action accrued. (C.C.P., s. 48; Code,
s. 169; Rev., s. 365; C.S., s. 410.)

App. 51
Chapter 35A.—Incompetency and Guardianship.
Subchapter I. Proceedings to Determine
Incompetence.
Article 1. Determination of Incompetence
* § 35A-1101. Definitions When used in this
Subchapter:
“Incompetent adult” means an adult or
(7)
emancipated minor who lacks sufficient
capacity to manage the adult’s own affairs or
to make or communicate important decisions
concerning the adult’s person, family, or
property whether the lack of capacity is due
to mental illness, mental retardation,
epilepsy, cerebral palsy, autism, inebriety,
senility, disease, injury, or similar cause or
condition.
(8)

“Incompetent child” means a minor who is at
least 17 1/2 years of age and who, other than
by reason of minority, lacks sufficient
capacity to make or communicate important
decisions concerning the child’s person,
family, or property whether the lack of
capacity is due to mental illness, mental
retardation, epilepsy, cerebral palsy, autism,
inebriety, disease, injury, or similar cause or
condition.

* § 99B-5. Claims Based on Inadequate Warning
or Instruction
(a) No manufacturer or seller of a product shall be
held liable in any product liability action for a claim
based upon inadequate warning or instruction

App. 52
unless the claimant proves that the manufacturer
or seller acted unreasonably in failing to provide
such warning or instruction, that the failure to
provide adequate warning or instruction was a
proximate cause of the harm for which damages are
sought, and also proves one of the following:
(1)

At the time the product left the control of the
manufacturer or seller, the product, without
an adequate warning or instruction, created
an unreasonably dangerous condition that
the manufacturer or seller knew, or in the
exercise of ordinary care should have known,
posed a substantial risk of harm to a reason­
ably foreseeable claimant.

(2)

After the product left the control of the
manufacturer or seller, the manufacturer or
seller became aware of or in the exercise of
ordinary care should have known that the
product posed a substantial risk of harm to a
reasonably foreseeable user or consumer and
failed to take reasonable steps to give
adequate warning or instruction or to take
other reasonable action under the
circumstances.

t-.*’

tI

App. 53

APPENDIX H
Camp Lejuene Toxic Water Map
u

co<
<u
wo

5*
>
w
Q'
UJ

ii i <!•

IliUi
§lrill

j
■j

as: i:

/
s:

V

5

i

o.ujcV

$

i?

£

j

tv ?

i K
J

_3 S S?
31

ft ^?> -+0 tj
£ c i t

33 (J h-i

■ P

a .

■ £ ‘ -

5,

sa

'A %

3

0

0

ui*
ih\%

1
«o

?3
<

«*

(

3

{

